BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-1352
WESTERN OILFIELDS SUPPLY COMPANY,
DOING BUSINESS AS RAIN FOR RENT,

Petitioner,
V.

SECRETARY OF LABOR AND FEDERAL MINE SAFETY
AND HEALTH REVIEW COMMISSION,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief for Petitioner contains
1,954 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 21, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

-

